No. 20-1704

IN THE

'upreme Court of tbe tittiteb Otateo
RONRICO SIMMONS, JR.,

Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

REPLY IN SUPPORT OF PETITION FOR A
WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,982 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 21, 2021.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

